<html>
<title> - EPA'S PROPOSED OZONE RULE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        EPA'S PROPOSED OZONE RULE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2015

                               __________

                           Serial No. 114-53


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ______________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-556                     WASHINGTON : 2015                      
  
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  
                  
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    46

                               Witnesses

Janet McCabe, Acting Assistant Administrator, Air and Radiation, 
  U.S. Environmental Protection Agency...........................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................    73

                           Submitted Material

Resolution of Cabarrus Regional Chamber of Commerce..............    48
Resolution of Rowan County Board of Commissioners................    49
Resolution of Cabarrus-Rowan Urban Area Metropolitan Planning 
  Organization...................................................    51
Statement of public health and medical organizations.............    53
Statement of National Association of Clean Air Agencies..........    55
Results of a survey by the Association of Air Pollution Control 
  Agencies.......................................................    59
Article entitled, ``Challenges of a lowered U.S. ozone standard," 
  in Science, June 5, 2015.......................................    71
Comments by the Texas Commission on Environmental Quality on 
  EPA's Proposed Ozone Rule \1\..................................    46

----------
\1\ Available at: http://docs.house.gov/meetings/if/if03/
  20150612/103590/hhrg-114-if03-20150612-sd005.pdf

 
                       EPA'S PROPOSED OZONE RULE

                              ----------                              


                         FRIDAY, JUNE 12, 2015

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:45 a.m., in 
room 2123, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Present: Representatives Whitfield, Olson, Shimkus, Harper, 
McKinley, Griffith, Johnson, Long, Ellmers, Flores, Mullin, 
Hudson, Upton (ex officio), Rush, McNerney, Green, Capps, 
Castor, Welch, Loebsack, and Pallone (ex officio).
    Staff Present: Will Batson, Legislative Clerk; Sean Bonyun, 
Communications Director; Leighton Brown, Press Assistant; 
Allison Busbee, Policy Coordinator, Energy & Power; Melissa 
Froelich, Counsel, CMT; Tom Hassenboehler, Chief Counsel, 
Energy & Power, A.T. Johnston, Senior Policy Advisor; Mary 
Neumayr, Senior Energy Counsel; Dan Schneider, Press Secretary; 
Christine Brennan, Minority Press Secretary; Michael Goo, 
Minority Chief Counsel, Energy and Environment; Caitlin 
Haberman, Minority Professional Staff Member; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; John Marshall, Minority Policy Coordinator; 
Alexander Ratner, Minority Policy Analyst; and Tim Robinson, 
Minority Chief Counsel.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to bring the hearing to order.
    This morning's hearing is going to be focused on EPA's 
proposed ozone rule.
    I would like to recognize myself for 5 minutes for an 
opening statement.
    The proposed rule would lower the standard from the current 
75 parts per billion down to 65 ppb or 70 ppb, but the Agency 
is also taking comments on 60 parts per billion.
    These proposed levels are so low that, in some parts of the 
country, they are at or near background levels. The proposed 
levels are so low that even EPA admits that it is not fully 
known in some areas how to achieve full compliance. In other 
words, they have to use unknown controls to do it, to meet 
those standards.
    The marginal costs of ratcheting down the existing standard 
go through the roof, and the EPA estimates that a 65-to-70-
parts-per-billion standard would cost $3.9 to $15 billion 
annually and that at 60 ppb would cost $39 billion annually.
    Independent estimates are much higher, including a National 
Association of Manufacturers study that puts the cost of a 65-
parts-per-billion standard at $140 billion a year, which would 
make this the Agency's most expensive regulation ever.
    This study also estimates 1.4 million fewer jobs and the 
household cost averaging $830 per year. These costs come on top 
of all of the other rules we have seen from this 
administration, many of which also impact the energy and 
manufacturing sectors.
    Moreover, this rule is yet another chapter in the 
administration's effort to force more extreme climate policies 
on the American people. I would like to just name a few of 
them. We have done the Utility MACT, the Boiler MACT, the 
Cement MACT, the Cross-State Air Pollution Rule, the PM, the 
111(d), the 111(b), the Tier 3, all on top of this proposed 
ozone rule.
    I would also like to point out that today in America there 
are 230 counties not in compliance with the 2008 standard. And 
I might also add that EPA is just now getting around to 
providing implementing guidance for the States for the 2008 
rule.
    Now, these counties not meeting the new standard would be 
designated as nonattainment. As I said, there are 230 counties 
today in nonattainment around the country.
    EPA estimates that fully 358 counties that currently have 
monitors would be in nonattainment if they go to 70 parts per 
billion and 558 counties would be in noncompliance at 65 parts 
per billion based on recent data. Now, this does not include 
counties nearby or without ozone monitors that may also be 
designated by EPA to be in nonattainment.
    Now, a nonattainment designation is like a self-imposed 
recession for some areas. In such counties, it becomes 
extremely difficult to obtain a new permit to build a factory, 
to expand a factory or a power plant, and even permits for 
existing facilities would be impacted.
    Just last week, in a survey of manufacturers, over half of 
them, in fact, 53 percent, said they were not likely to 
continue with a new plant or expansion if it is located in a 
nonattainment area.
    The same permitting challenges apply for roads and other 
large infrastructure projects. In effect, almost all new major 
job-creating economic activity is jeopardized until the 
nonattainment area meets the standard, which could take years, 
if not decades.
    Even the mere possibility that a location could later be 
designated to be in nonattainment is enough to scare off 
prospective employers. So the proposed rule may already be 
doing damage.
    Now, there is something wrong with our system when you have 
Los Angeles, San Joaquin Valley, major parts of California, 
that have the most stringent environment standards in the 
country and, on top of that, EPA and those areas--San Joaquin 
Valley, Los Angeles--may never be in compliance. And they are 
certainly not in compliance today and have been out of 
compliance since the beginning of the Clean Air Act. So we have 
a system that is not working very well.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning we will begin our examination of EPA's 
proposed new National Ambient Air Quality Standard (NAAQS) for 
ozone. We will start with a focus on the agency's perspective, 
and I welcome Acting Assistant Administrator McCabe. Next 
Tuesday we will explore other perspectives on this proposed 
rule, including those of the job-creating businesses on which 
the compliance burdens would fall.
    Before we get into the proposed new rule, I want to touch 
on a few historical points I think are relevant to the 
conversation. The regulation of criteria pollutants, including 
ozone, is a core component of the Clean Air Act. The agency 
adopted ozone standards in 1971, 1979, and 1997. These 
regulations have resulted in major reductions, and ozone levels 
have declined by more than 30 percent since 1980.
    In 2008, the Bush EPA finalized an even stricter ozone 
standard, the agency's fourth. However, the Obama EPA itself 
has significantly delayed implementation of this rule. In fact, 
the agency delayed issuing the implementing regulations until 
last March. As a result of this late start, state and local 
governments are only in the very preliminary stages of 
compliance, which will take many more years.
    In my view, the ozone problem in America is well on its way 
towards resolution, and to the extent that EPA identifies 
public health concerns they are largely in areas out of 
compliance with the existing standard. However, rather than 
focus on implementing the requirements already on the books, 
the agency seems intent on setting a new rule that would bind 
future administrations.
    The proposed rule would lower the standard from the current 
75 parts per billion (ppb) down to 65 or 70 ppb, but the agency 
also took comment on 60 ppb. These proposed levels are so low 
that in some parts of the country they are at or near 
background levels. The proposed levels are so low that even EPA 
admits that it is not fully known how to achieve compliance.
    The marginal costs of ratcheting down the existing standard 
go through the roof. EPA estimates that a 65 to 70 ppb standard 
would cost $3.9 to $15 billion annually, and that a 60 ppb 
standard would cost $39 billion annually. Independent estimates 
are much higher, including a National Association of 
Manufacturers' (NAM) study that puts the cost of a 65 ppb 
standard at $140 billion per year, which would make it the 
agency's most expensive regulation ever. This study also 
estimates 1.4 million fewer jobs and household costs averaging 
$830 per year.
    These costs come on top of all the other rules we have seen 
from the Obama EPA, many of which also impact the energy and 
manufacturing sectors. Moreover, this rule is yet another 
chapter in the Administration's effort to force more extreme 
climate policies on the American people. Those counties not 
meeting the new standard would be designated as nonattainment. 
EPA estimates that fully 358 counties that currently have 
monitors would be in non-attainment at 70 ppb, and 558 counties 
at 65 ppb based on recent data. This does not include counties 
nearby or without ozone monitors that may also be designated by 
EPA to be in nonattainment.
    A nonattainment designation is like a self-imposed 
recession. In such counties it becomes extremely difficult to 
obtain a new permit, build a factory or power plant, and even 
permits for expansions at existing facilities are impacted. 
Just this week, in a survey of manufacturers, over half said 
they were not likely to continue with a new plant or expansion 
if it was located in a nonattainment area.
    The same permitting challenges apply for roads and other 
large infrastructure projects. In effect, almost all new major 
job-creating economic activity is jeopardized until the 
nonattainment area meets the standard, which could take years 
if not decades. Even the mere possibility that a location could 
later be designated to be in nonattainment is enough to scare 
off prospective employers, so the proposed rule may already be 
doing damage.
    To me, this proposed ozone rule is Exhibit A of 
skyrocketing marginal costs and diminishing marginal returns. 
Implementation of the current standard has essentially not yet 
begun. At a minimum, EPA should focus on implementing the ozone 
rule already on the books before imposing a new one.

    Mr. Whitfield. At this time I would like to recognize the 
gentleman from New Jersey, Mr. Pallone, for his 5-minute 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Whitfield, for holding 
this hearing on EPA's proposed ozone standard.
    I also want to welcome EPA Acting Assistant Administrator 
Janet McCabe and thank her for testifying before the 
subcommittee again.
    Since 1970, the cornerstone of the Clean Air Act has been a 
set of health-based air quality standards which help to ensure 
that all Americans can breathe healthy air. EPA must set each 
air quality standard based on science and medical evidence 
alone.
    Essentially, the standard sets the level of pollution that 
is safe to breathe. This structure has been extraordinarily 
effective in cleaning the air and protecting public health, 
including the health of children and seniors.
    But the current 75-parts-per-billion ozone standard has 
fallen short. Since 2008, the ozone standard has been weaker 
than the facts would allow.
    As such, the Independent Clean Air Scientific Advisory 
Committee made crystal-clear that, in order to adequately 
protect public health, EPA must strengthen the ozone standard 
to ensure an adequate margin of safety for all individuals. But 
these recommendations, unfortunately, were ignored by the Bush 
administration.
    To correct this flagrant disregard for the facts, EPA has 
now proposed, based on yet another exhaustive review of the 
scientific evidence, to revise the standard to fall within the 
range of 65 to 70 parts per billion, as recommended by the 
Scientific Advisory Committee.
    EPA's decision is fully consistent with the law and the 
scientific evidence, and there are a litany of adverse health 
impacts that will be avoided with the stronger standard, nearly 
a million asthma attacks in children, millions of missed school 
days, and thousands of premature deaths.
    These are meaningful real-world benefits, but I have little 
doubt that today we will hear much about cost. Yet, a unanimous 
United States Supreme Court opinion written by Justice Scalia, 
no less, made it clear that EPA's approach for determining a 
safe level of air pollution is correct and costs may not be 
considered.
    And that is why Congress designed the Clean Air Act. The 
standard is set based on the health science, and economic costs 
are only considered later when determining the best way to 
implement the standard. In other words, EPA sets the goal for 
clean air and the States develop the lowest cost way to meet 
it.
    Although EPA may not consider costs in setting the 
standard, EPA has, nevertheless, worked with the Office of 
Management and Budget to prepare a careful analysis of the 
projected costs and benefits associated with reducing ozone. 
EPA estimates that the benefits associated with the new ozone 
standards would range from $13 to $38 billion annually, 
outweighing the cost by approximately three to one.
    Industry has prepared dubious and grossly inflated 
estimates of the projected costs, but they fail to consider any 
of the benefits. That paints a completely one-sided picture of 
the costs of cleaning our air, one that ignores the real costs 
that are borne by those who breathe, especially children whose 
lungs are developing and who breathe greater volumes of air for 
their size.
    We will also hear that EPA's proposed ozone standard will 
have dire consequences for economic growth. And these doomsday 
claims about the costs of clean air are nothing new.
    The history of the Clean Air Act has a history of 
exaggerated claims by industry that have never come true. The 
reality is that, over the past 40 years, the Clean Air Act has 
produced tremendous public health benefits while supporting 
America's economic growth.
    EPA's ozone standard is long overdue. We need to let EPA do 
its job to reach the goal of the Clean Air Act, clean air for 
all Americans. And I look forward to Ms. McCabe's testimony.
    I yield back the balance of my time.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from Texas, Mr. 
Olson, for 5 minutes.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. I thank the chair. And I will be very brief.
    I spent long hours going over comments that EPA received 
about this new ozone rule. And there was a common theme: ``Will 
I lose my job?'' Questions came from big cities, members of the 
Atlanta Chamber or the Greater Houston Partnership. They came 
from family farms and ranches, members of the Iowa Farm Bureau 
or the Nebraska home builders.
    A mom-and-pop store in Pennsylvania wrote EPA: ``Parents 
tell our children, `Eat your peas, then you can have dessert.' 
EPA says, `Eat your peas, then you can have more peas.'''
    The worst came from EPA's workhorses, the state agencies 
who make this rule work. They have questions about the science 
used for the health impacts. They worry if they can build new 
roads. These voices come from all of America, and I hope EPA 
starts listening.
    And if one of my colleagues on my side wants some time, I 
will yield. If not, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from Illinois, Mr. 
Rush, for 5 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for this 
hearing today on the EPA's proposed ozone rule.
    And I also want to welcome back Ms. McCabe, the Acting 
Assistant Administrator for Air and Radiation at EPA. She has 
always given us her best, and I always am pleasured to hear her 
insightful and forthright testimony before this subcommittee.
    Mr. Chairman, today, as has been duly noted, we are here to 
discuss the proposed National Ambient Air Quality Standards for 
ozone, which the EPA is legally mandated to put forth by the 
Clean Air Act.
    The Clean Air Act requires the EPA to set primary National 
Ambient Air Quality Standards at concentration levels 
sufficient to protect the public health with an adequate margin 
of safety for certain pollutants that endanger public health 
and the environment.
    We know that the EPA establishes these standards based on 
medical and scientific evidence as well as the recommendations 
provided by the Clean Air Scientific Advisory Committee, which, 
Mr. Chairman, you know is an independent scientific review 
committee.
    The EPA is required to base these standards, which must be 
reviewed every 5 years, solely on consideration of public 
health, and they must accurately reflect the latest scientific 
knowledge, Mr. Chairman.
    We know that, in 2008, the Bush administration failed to 
heed the unanimous recommendations of the Clean Air Scientific 
Advisory Committee, ignoring the ozone air quality standards to 
between 60 and 70 points per million.
    Instead, the EPA under President Bush set the standard at 
75 ppb, despite the advice of the Scientific Advisory Committee 
that a 60-to-70-ppb standard would be more protective of public 
health.
    The Obama administration also initially failed to 
reconsider the ozone standard in 2009 until being ordered to do 
so by the courts in April of last year due to a lawsuit brought 
forth by environmental and public health groups.
    So that leads us to ask the questions, Mr. Chairman: Why is 
this rule so very important? And why did the court force the 
EPA to act?
    Well, we know that there are serious health effects caused 
by the ozone, and the EPA's proposal will improve air quality 
and result in significant public health benefits. Children, the 
elderly, and people with respiratory diseases such as asthma 
will be impacted directly by this rule.
    The EPA estimates that there are currently 25.9 million 
people in the U.S. with asthma, including 7.1 million children. 
And, Mr. Chairman, my city of Chicago has been and is 
disproportionately impacted by asthma and the effect that ozone 
has on asthma. The most recent study shows that Cook County, 
Illinois, is home to over 113,000 children and over 340,000 
adults with asthma.
    And, Mr. Chairman, I don't know what value can be placed on 
preventing all of these dire circumstances, all these 
illnesses, all these premature deaths and emergency room 
visits, but I know that the people who sent me here to 
represent them are some of the ones who would be impacted by 
this procedure and by this action most of all.
    So I look forward to engaging Ms. McCabe on the rationale 
behind this proposal. And, Mr. Chairman, I think I am out of 
time. So I yield back the balance of my time.
    Mr. Whitfield. The gentleman yields back the balance of his 
time.
    At this time, Ms. McCabe, I want to thank you for coming 
here early this morning, at 9:30 a.m. And, once again, we 
apologize for the delay. But we are delighted that Janet McCabe 
is with us, the Acting Assistant Administrator at EPA.
    And you are recognized for 5 minutes for your statement on 
the ozone rule.

STATEMENT OF HON. JANET MCCABE, ACTING ASSISTANT ADMINISTRATOR, 
    AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCabe. Thank you, Chairman Whitfield, Ranking Member 
Rush, members of the subcommittee. Thank you for the 
opportunity to testify today on EPA's proposed updates to the 
ozone National Ambient Air Quality Standards. I will try to be 
brief so we can get to your questions.
    The Clean Air Act requires EPA to review the National 
Ambient Air Quality Standards every 5 years to make sure that 
they continue to protect public health with an adequate margin 
of safety. For at-risk groups, including, as Ranking Member 
Rush has noted, the estimated 25.9 million people who have 
asthma in the United States, of whom 7.1 million are children, 
this is critical work.
    For this review, EPA examined the thousands of scientific 
studies, including more than 1,000 new studies published since 
EPA last revised the standards in 2008. Based on the law, a 
thorough review of all of that science, the recommendation of 
the Agency's independent scientific advisors and the assessment 
of EPA scientists and technical experts, the Administrator's 
judgment was that the current standard of 75 parts per billion 
is not adequate to protect the public health. So she proposed 
to strengthen those standards to within a range of 65 to 70 
parts per billion to better protect Americans' health and 
welfare.
    The Agency invited comments on all aspects of the proposal, 
including alternative levels as low as 60 parts per billion, 
and also acknowledged interest among some stakeholders in 
offering comment on retaining the existing standard.
    We also propose to update the Air Quality Index for ozone 
to reflect a revised standard if one is finalized. The AQI is 
the tool that gives Americans realtime information about air 
quality each day so they can make informed choices to protect 
themselves and their families.
    Ozone seasons are lasting longer than they used to. So EPA 
proposed to lengthen the ozone monitoring season for 33 states 
to match the season when ozone levels can be elevated.
    To protect the environment from damaging levels of ground-
level ozone, as required by the Clean Air Act, the EPA has also 
proposed to revise the secondary standard.
    Based upon new studies that add to the evidence that 
repeated exposure to ozone reduces growth and has other harmful 
effects on plants and trees, the Administrator judged that a 
secondary standard within the range of 65 to 75 parts per 
billion, the same as the primary standard proposal, would 
protect the public welfare, particularly against harm to trees, 
plants, and ecosystems.
    In addition, we have proposed to make updates to monitoring 
and permitting requirements, smooth the transition to any 
revised standards, maximize effectiveness in the State, local, 
tribal and Federal monitoring programs, and give areas new 
flexibilities to meet local needs for monitoring ozone 
precursors. All of these updates are designed to ensure that 
Americans are alerted when ozone approaches levels that may be 
unhealthy, especially for sensitive people.
    The Administrator's proposal to strengthen the standards is 
designed to better protect children and families from the 
health effects of ozone pollution. For example, we estimate 
that meeting a level in the range of 65 to 70 parts per billion 
would prevent an estimated 330,000 to 1 million missed school 
days, 320,000 to 960,000 asthma attacks in children, and 710 to 
4,300 or more premature deaths per year.
    Implementing a NAAQS has always been and will continue to 
be a Federal, state, and tribal partnership. EPA stands ready 
to do our part to assist states and tribes with pollution 
control programs and to streamline implementation.
    Local communities, states, tribes, and EPA have already 
shown that we can reduce ground-level ozone while our economy 
continues to thrive. We have reduced air pollution in this 
country by nearly 70 percent, and our economy has tripled since 
1970. We fully expect this progress to continue.
    Existing and proposed Federal measures like vehicle 
standards, power plant rules, are leading to substantial 
reductions in ozone nationwide, which will help improve air 
quality and help many areas meet any revised standards.
    We received over 430,000 comments during the 90-day public 
comment period, and we are reviewing those comments as we work 
towards completing the final standards by October 1 of this 
year.
    Thank you very much. And I look forward to your questions.
    [The prepared statement of Ms. McCabe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Thank you, Ms. McCabe, very much.
    And I recognize myself for 5 minutes of questions.
    Many of us believe that the Clean Air Act needs to be 
changed. I say that because, just as Mr. Rush mentioned, you 
mentioned, EPA looks at impact on health care by making it more 
stringent, these ozone rules, for example, and you eliminate so 
many cases of asthma, so many premature deaths, whatever, 
whatever, which is important.
    But under the act you do not have any responsibility to 
look at those pockets of the country that are in noncompliance 
and the impact that these stringent controls have on jobs. And 
we have had economist after economist come in here and talk 
about loss of jobs and the impact that that has on health care 
for children, for infants.
    And, yet, EPA, every time they come up here, it is all 
about the benefits, the benefits, the benefits. And there are 
detriments to these actions because, as you know, when an area 
is in noncompliance, they can't build a new plant unless they 
can get a permit. They can't built infrastructure projects. And 
it does have an effect on jobs.
    Now, fortunately, areas like Los Angeles that have never 
been in compliance, you know, they rely on the entertainment 
industry and high tech and so forth. So they don't have to 
worry about manufacturing jobs or basic industry jobs.
    But how do you account for the fact, for example, that Los 
Angeles is still in noncompliance and your own rule states 
that, some of these areas, the only way they will ever be in 
compliance under even the 2008 rule is they have to use unknown 
controls, controls that we don't know what it is.
    And you do understand--I mean, your own testimony, your own 
documentation, shows that many parts of the country are going 
to be in noncompliance, whether it is 70 ppb or 65 ppb. And 
even President Obama tried to prevent the implementation. He 
delayed implementation of the most recent review.
    And now, of course, environmentalist groups who do a good 
job, they have a role to play, but they are driving EPA because 
they are always going in to court. And under the strict 
construction of the language, sometimes which is quite 
nebulous, the courts say, ``You cannot delay.''
    So many of us are really frustrated that these 
environmental groups are driving the decisions because of the 
strict language in the original Clean Air Act. So I hope you 
get a sense of the frustration of many parts of the country.
    In Kentucky, we are going to have 11 more counties in 
noncompliance at 70 ppb. We are going to have 23 more at 65 
ppb. And every major city in Kentucky will be in noncompliance 
at some of these levels.
    So are you concerned that, after all this time, areas like 
Los Angeles and San Joaquin still can't even meet the old 
standards?
    Ms. McCabe. Chairman Whitfield, there is a lot in your 
question there, and I will try to address as much of it as I 
can.
    There are certainly parts of the country where meeting the 
health standard has been extremely challenging due to a variety 
of factors, including particular challenges in southern 
California. What that means is that millions of people who live 
in those areas are exposed to unhealthy air.
    The good news is that air quality has improved in southern 
California as well as all across the country----
    Mr. Whitfield. But they are still in noncompliance.
    Ms. McCabe. They do not meet the standard, but there are 
way fewer days and the levels are lower and the area is making 
progress in a way that still supports a vital local economic 
and----
    Mr. Whitfield. How much time does Los Angeles have to 
comply? I don't know if they are severe or extreme. But how 
many years do they have to comply?
    Ms. McCabe. Los Angeles is in the extreme category. And if 
the standard is revised this fall, they would have until 2037 
to meet that standard.
    What that means is the area has a lot of time to bring 
reductions into place and----
    Mr. Whitfield. But they have been working on it for 15 or 
18 years. They are not even in compliance today.
    Ms. McCabe. That is right. The air is still not healthy 
there for the citizens to breathe.
    Mr. Whitfield. Well, I see my time has expired. But many of 
us feel very strongly you should just continue to implement 
this existing rule for a while and give the country time to 
catch up, since even your implementing guidance has not been 
issued until just recently.
    I recognize the gentleman from Illinois for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Assistant Administrator McCabe, in your written testimony, 
you note that nationally, since 1980, average ozone levels have 
fallen by a third. Additionally, 90 percent of the areas 
originally identified as not meeting the ozone standards set in 
1997 now meet those standards, 97 percent.
    What would you say to the argument that we have already 
reduced our average ozone levels enough and further lowering 
the standards from 75 to 70 or even 65 would not give us the 
additional health benefits as opposed to the cost of trying to 
reach those higher standards?
    Ms. McCabe. Yes. Well, Congress in the Clean Air Act 
directed EPA every 5 years to look at the science and make a 
determination about whether the current level is adequate to 
protect the public health.
    And based on all of that review in a very open process with 
external peer review all along the way, the Administrator made 
the determination that 75 parts per billion is not sufficiently 
protective.
    That is based on all of this science that we have seen that 
shows that people suffer the effects of ozone air pollution at 
levels below 75 parts per billion. That is her job to do under 
the Clean Air Act, and that is what our proposal is all about.
    Mr. Rush. Well, you also point out that, since 1980, we 
have reduced our air pollution by nearly 70 percent and our 
economy has tripled. And we know that, by law, EPA cannot 
consider the cost of implementing either the primary or 
secondary air quality standards, but only can consider the 
health benefits.
    Has there been any cost-benefit analysis by the EPA or any 
other agency either before, during, or after the proposal?
    Ms. McCabe. Ranking Member Rush, you are correct to point 
out that there is a separation that Congress laid out in the 
Clean Air Act between deciding what the science says is 
important for safe and healthy air and deciding how to meet 
that standard, which the states are in charge of because it is 
their air quality, their sources, with considerable help from 
the Federal Government.
    So we don't know exactly how the states will go about 
meeting the standard because we know that they will--as they 
have over the years, they will find cost-effective ways to do 
that with the help of rules provided by the Federal Government.
    But we do provide, as part of the rulemaking process, a 
regulatory impact analysis, an RIA, to show illustrative costs. 
And that goes through the review of the Office of Management 
and Budget and is done consistently with the obligations and 
the requirements that they put on us to do those sorts of 
economic reviews.
    Mr. Rush. Ms. McCabe, the chairman talked about Los Angeles 
and other places. What is your viewpoint? Why do they stand 
out? And what direction is the EPA going to try to bring them 
more into compliance?
    Ms. McCabe. There are a lot of pretty unique features that 
make southern California very challenging for air quality.
    It is obviously a very populated area. So there is a lot of 
activity there that creates emissions. But there is also the 
unique geography and topography, of being the mountains and the 
ocean and the meteorology there, that just makes it very 
challenging.
    As a result, EPA, as well as really progressive and smart 
and innovative agencies and businesses in California, have 
really led the way in figuring out how to reduce emissions in 
cost-effective ways to protect the citizens and improve air 
quality there.
    And EPA, in fact, has provided significant support and 
assistance through grant programs, through technology 
assistance over the years, and certainly will continue to do 
that in order to bring the kinds of programs that need to be in 
place there.
    One of the advantages of that is that the innovations in 
California have helped the rest of the country in terms of 
bringing new ideas and new approaches into use in ways that can 
benefit the rest of the country and benefit the economy.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair.
    Welcome back, Ms. McCabe.
    We all know that much of the ozone in America is beyond our 
control. EPA calls this background ozone. Some of this ozone is 
natural, blows from other countries.
    I have a slide here. This was Houston. Some of that is not 
our ozone. Some belongs to Mexico. We get it because of annual 
crop burnings.
    I have another poster. Last time Ms. McCarthy was here I 
showed her this map of ozone pouring into America from China 
and Asia.
    In your proposal, you admit that natural ozone and ozone 
from Mexico and China can be a huge problem. Your rule says, 
``There are times where ozone levels approach or exceed the 
concentration levels being proposed in large part due to 
background sources.''
    In small Needville, Texas, you are saying that ozone we 
can't control makes us violate your new rules. That seems very 
unfair, ma'am.
    My first question is: Is it true that nearly one-half of 
the ozone in America is here naturally or comes from overseas?
    Ms. McCabe. I don't know that I would agree with that 
formulation exactly. We do address the background issue, and 
background levels vary across the country and they vary across 
different times of year. And, as you note, they come from a 
variety of sources.
    I will note that the Clean Air Act does not hold States 
responsible for pollution that they do not control, and there 
are provisions and mechanisms in the Clean Air Act to help 
States that----
    Mr. Olson. Ma'am, I am sorry. I have only have 5 minutes 
and thousands of questions back home people have asked. So I 
have got to cut you off. I apologize.
    And, also, your answer goes against your own data. I will 
give you copies of the EPA's data that says foreign ozone is 
all over this country.
    We know that natural and foreign ozone are not going away 
and are likely to get much, much bigger. That means we must 
squeeze more and squeeze more from smaller and smaller sources 
of ozone. EPA can't say how this can be achieved. You don't 
know.
    Is it true the EPA says that much of the technology needed 
to meet these new rules are unknown today? Is that true? Yes or 
no.
    Ms. McCabe. I wouldn't characterize it as much of the 
technology. We do recognize that, in some parts of the country, 
there may need to be controls identified that are not in 
existence today.
    But there are many controls that are in existence today 
that can be implemented that will reduce the air pollution that 
causes ozone.
    Mr. Olson. Ma'am, one example: EPA admits that 43 percent 
of NOx controls needed in the northeast are now unknown. Stark 
contrast to your answer.
    One other question: Is it true that EPA won't even consider 
whether an ozone rule is achievable? Is that true? In your 
formulation, will you consider is this achievable? Can we do 
this with technology?
    Ms. McCabe. Our job under the Clean Air Act is to identify 
the standard that is necessary to protect the public health. 
That is what this rule is about, is letting the American people 
know what is safe and healthy air for them to breathe.
    Mr. Olson. So you can't take into account achieve-ability. 
You just can't do that.
    By law, is that what you are saying, ma'am?
    Ms. McCabe. The Supreme Court has spoken to this, and this 
is about the science and about what is healthy for the American 
people.
    Mr. Olson. Well, it sounds like we need to change that law.
    One final question, ma'am. The law does not require, as you 
know, EPA to change the ozone rule every 5 years. You just have 
to review it, as you said in your opening comments.
    You say you have to change the current rule because the 
2008 rule doesn't protect human health, and, yet, back home the 
Texas Commission on Environmental Quality points out that your 
own modeling in your ``Health and Risk Exposure Assessment, 
appendix 7, page 73-2'' would result in more deaths in Houston, 
Texas, with a lower standard.
    TCEQ concludes that our EPA can't read their own data or 
you are accepting a lower ozone standard that makes health 
worse.
    Any comments about that fact, ma'am?
    Ms. McCabe. I would very much disagree with the way TCEQ 
characterized the data. And if you look at the entire body of 
data, you will see that the health benefits of the proposed 
ozone standard are substantial.
    We welcome everybody's comments on the rule, and TCEQ has 
provided a lot of analysis which we are looking very closely 
at.
    Mr. Olson. I will make you a deal. Get a copy of our 
assessment. Have it to you today, ma'am. Thank you very much.
    Yield back.
    Mr. Whitfield. Time has expired.
    At this time I recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    And thank you, Ms. McCabe.
    Early in your testimony and, also, in response to Mr. 
Rush's question, you said that you looked at thousands of 
reports, a thousand more recent reports, and it concluded that, 
to protect the health and safety of the communities, 75 was a 
little too high.
    Now, are we splitting hairs here or are we talking about 
large-scale effects?
    Ms. McCabe. We are talking about millions of people that 
are suffering the effects of ozone pollution that at a lower 
level would not suffer those effects.
    Mr. McNerney. So one of the EPA's primary missions is to 
protect the health of this country and our communities.
    Wasn't there a rule recently that ensured that the EPA must 
look at health and safety of the community first before looking 
at economic impacts?
    Ms. McCabe. That is exactly what courts have said with 
regard to setting these air quality standards. Yes.
    Mr. McNerney. Thank you.
    The chairman mentioned San Joaquin Valley, which is my 
home.
    So I appreciate your attention, Mr. Chairman.
    But I have seen over the last several years improvement 
year by year in the air quality in our community, and I think a 
lot of this is due to the kind of standards that the EPA has 
initiated.
    And one of the things that we do is incentivize some of the 
old diesel equipment to be replaced by new diesel equipment, 
but that takes time.
    That is not something we can require all the farmers or 
diesel truck owners to do over a period of a year or two. It 
takes time. So I appreciate that we are going to continue to 
look at those and keep those standards in place.
    And I just want to say the Bay Area contributes a lot of 
the ozone to the San Joaquin Valley. Sort of like what Mr. 
Olson was saying, we get a lot of it from outside of our 
region.
    So we ask you to take special consideration to that in 
helping us make those attainments and then the sort of 
penalties that are assessed when you don't make those 
attainments. And I appreciate Mr. Olson's comments on that.
    What is the EPA going to do or how is the EPA going to 
assess drought impacts on air pollution and ozone?
    Ms. McCabe. Yes. So we know that the drought situation is 
incredibly severe and challenging and troubling in California 
and elsewhere. That can contribute to poor air quality because 
of increased dust. But we also have tools in the Clean Air Act 
that can allow States to evaluate their air quality as it is 
being influenced by natural conditions such as that.
    And we are working closely with the States to make sure 
that our guidance and expectations are current with situations 
like drought and wildfires, which are also a challenge, to make 
sure that States aren't responsible for natural conditions and 
that sort of thing that can create ozone situations.
    Mr. McNerney. Would you confirm my observation that the air 
quality is improving in the San Joaquin Valley?
    Ms. McCabe. Yes, sir. Yes. I certainly would.
    Mr. McNerney. Do you have something you could say here 
about that?
    Ms. McCabe. Well, I don't have figures with me, 
Congressman, although I would be happy to get those to you. But 
certainly over recent years air quality has been improving, and 
it is due to the kinds of programs that you mentioned: 
replacing older, dirtier engines with cleaner, newer ones and 
working very closely with the agricultural community and 
everybody in the San Joaquin Valley to find sensible things to 
do.
    Mr. McNerney. So nonattainment doesn't penalize us in the 
sense of backtracking the actual air quality in the region?
    Ms. McCabe. No. No. Not at all. It is all moving in the 
right direction.
    Mr. McNerney. Thank you.
    Could you explain the difference between secondary 
standards and primary standards.
    Ms. McCabe. Yes. Primary standards are focused on 
protecting human health. Secondary standards are focused, as 
the Clean Air Act says, in protecting public welfare.
    So those are other things that we care about, as people who 
live in this country: economic impacts, effects on ecosystems, 
effects on crops, effects on buildings, the other things that 
make our economy and our quality of life what it is.
    Mr. McNerney. OK. So then you said you are going to set the 
primary and secondary standards the same with regard to ozone.
    Ms. McCabe. Well, it turns out we do an independent 
analysis of the information that exists on human health and 
then on these secondary impacts and there is an extensive 
discussion of that in the preamble in the proposal.
    And our Clean Air Act Science Advisory Committee spoke to 
that directly. Our review of the science shows that a standard 
set in the range of 65 to 70 will provide the protection that 
the science tells us the welfare impacts require.
    Mr. McNerney. OK. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    And, Assistant Administrator, welcome. It is good to have 
you back.
    Just personally, just you as an individual, don't you 
believe that having a good-paying job with health benefits is 
also protective of human health?
    Ms. McCabe. I think it is important for everybody to have a 
job and----
    Mr. Shimkus. And healthcare benefits of some sort.
    Ms. McCabe. Yes, I do. Of course I do.
    Mr. Shimkus. And that is part of our--I mean, when you hear 
the questions and the responses back and forth, that is kind of 
our--part of our challenge is--especially as I follow up on 
this question, is that you all, as an EPA, don't really have 
the authority to evaluate that with respect to your primary 
mission, which is protective of human health via the air 
regulations. Right?
    I mean, you just can't weigh in. You are not making those 
cost-benefit analyses. We say we are to some extent, but they 
are so far down the decision tree that many of us believe that 
they just don't happen.
    So let me go to another question based upon a comment you 
made. Because a lot of this is--75 parts per billion in 2008, 
many states have not met those yet, but now we are ratcheting 
down even more and there is a lot of uncertainty. Now that will 
move on to my third question once I get there.
    But in your response you talked about background is 
different in different areas. So are you considering a 
different regulation standard based upon the variance of 
background? So could one area of the country have a 70 parts 
per billion and another one have a 65 parts per billion? And 
if----
    Ms. McCabe. Well----
    Mr. Shimkus. Yes. Answer the question. I can follow up.
    Ms. McCabe. Yes. Sure.
    Well, the standard is supposed to reflect what is safe for 
people to breathe. And so a child living in Florida and a child 
living in Oregon should be entitled to the----
    Mr. Shimkus. But background is background. Background is 
there without, in essence, human contact.
    Ms. McCabe. That is right. And that comes into play when 
states are putting their plans together and EPA is working with 
states to figure out how much time and what needs to be done in 
order to reach those standards so that areas that have more----
    Mr. Shimkus. But if an area has 70-parts-per-billion 
background, you can't get them to 65----
    Ms. McCabe. But----
    Mr. Shimkus [continuing]. Through the power of government.
    Ms. McCabe. But there are two very important elements to 
the standard. One is for the people who live in that area to 
know whether the air that they are breathing is healthy or not.
    Mr. Shimkus. So they should move. Is that the answer? Get 
out of that 70-parts-per-billion area because it is not 
healthy.
    Ms. McCabe. No. But they should know that, when the air 
quality is bad, that they might want to----
    Mr. Shimkus. What should they do? It is naturally 
occurring. That is the background.
    Ms. McCabe. Right. But understand, too, that ozone changes 
from day to day and there are----
    Mr. Shimkus. So they should take a vacation during those 
days. You see our problem. I think--in rolling this out, I 
would hope that--background is important. Background should be 
a standard. We should not try to have government force 
something that is not naturally occurring based upon nature 
without man's intervention.
    Ms. McCabe. If I could clarify a point on the background 
because I think people may be thinking that this is pervasive, 
in fact, across the country, most of the ozone that is 
contributing to high values is locally or regionally created.
    There are very few areas, very few parts of this country, 
where background can get as high as approaching the level----
    Mr. Shimkus. OK. But you understand our concern, even if it 
is very low possibility. If--anyway, I want to move on to the 
last question.
    We just finished our congressional baseball game last 
night. We lost again. But it makes me think about what Chairman 
Whitfield was addressing. Had we started the game and then 
halfway through the game the strike zone changed or in the 
second inning the number of outs changed or the fourth inning 
the foul lines changed or the outfield walls got moved in, that 
would make for a very frustrating, impossible game. Don't you 
agree?
    Ms. McCabe. But this is about--ozone is not about rules. It 
is about science.
    Mr. Shimkus. This is about Utility MACT, Boiler MACT, 
Cement Rule, Cross-State Air Pollution, 111(d), 111(b), ozone, 
different standards, particulate matter, Tier 3.
    We are changing the rules on the fly, and the people who 
are creating jobs in this country cannot manage it. That is our 
problem with what is going on with the EPA.
    And I yield back my time.
    Mr. Whitfield. At this time I recognize the gentlelady from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you, Ms. McCabe, for your testimony.
    And maybe it is a bias because I have been a public health 
nurse a long time, but when it comes to air quality, I believe 
our focus must be primarily on protecting public health.
    This is the standard set by Congress in the Clean Air Act. 
It is a standard that has been upheld by the Supreme Court and 
for good reason. Clean air has very real and significant 
impacts on the health and well-being of all Americans.
    And this was underscored by our Ranking Member Bobby Rush 
from Chicago, where they know a thing or two about air 
pollution, too. Healthier children, parents, and employees 
translate into very real economic benefits.
    I would say to my colleague Mr. Shimkus, who made a case in 
the other direction, that good jobs with health benefits, which 
he was arguing for, are even better in the context of clean 
air. And even polluters benefit from healthier employees taking 
fewer sick days.
    So my question is just asking you to elaborate on this 
fact. What is the economic value?
    Ms. McCabe. Yes. It is absolutely true. And I think many 
agree that a clean and healthy environment is very positive for 
the economy as well as for public health.
    Our illustrative analysis shows that, at a standard of 60 
parts per billion, there would be benefits in the range of $6.4 
to $13 billion to the economy and, for 65 parts per billion, 
$19 to $38 billion.
    And that comes from some of the things that you have cited, 
which is fewer missed school days, less missed work, fewer 
visits to the emergency room and that sort of thing.
    Mrs. Capps. Right. Some oppose strengthening ozone 
standards--and we have heard it today--because it would 
increase the number of nonattainment areas.
    Ms. McCabe, does the Clean Air Act require EPA to set ozone 
standards based on how many areas currently meet that standard 
or based on protecting public health?
    Ms. McCabe. It is based on protecting public health.
    Mrs. Capps. And for those areas that need to make 
improvements--and many of these are in my home State of 
California--what resources are available to help lower the 
ozone layers?
    I think the word ``smog'' was invented in the Los Angeles 
area. I live just a tiny bit to the north of it, but we still 
struggle every day.
    Are these areas on their own or does the Federal Government 
provide assistance?
    Ms. McCabe. Absolutely. This is a partnership between the 
Federal Government and the State governments. The Federal 
Government assists in a number of ways.
    One is by promulgating national rules like Tier 3 to apply 
to automobiles nationwide, bring tremendous benefits, and other 
rules that make sense to do at a national level.
    We also help the States by providing financial assistance 
and support, technical assistance and grants. And your area has 
certainly benefited from those sorts of programs that can be 
very targeted to the specific needs of a particular area.
    Mrs. Capps. Thank you.
    And, as you know well--and I would like to turn to the 
topic of climate change just briefly--this is increasingly 
impacting all aspects of our economy and our daily lives. 
Storms are getting stronger. Floods are getting worse. 
Droughts, as I know very well in California now, and wildfires 
are getting more severe. And climate change also increases the 
levels of ozone in the air we breathe.
    Would you explain just very simply how climate change is 
expected to impact ozone levels. And how will this affect our 
human health?
    Ms. McCabe. Sure. As the climate gets warmer--warm 
conditions are what is conducive to ozone formation. So it can 
lead to increased ozone formation. And, circularly, ozone is 
also a climate pollutant. So it helps contribute to the kinds 
of effects that we are seeing.
    Mrs. Capps. And then, just briefly, finally, I hear so 
often the industry as well as some here in Congress cite high 
cost estimates as the reason to oppose strengthening 
environmental public health standards. It is the same argument 
being used against the proposed ozone standards.
    While I believe cost of new regulations should certainly be 
considered and there is a way that you are talking about doing 
that, these costs must also be weighed against the benefits. It 
is important to remember that health benefits represent real 
people and real lives saved.
    So how do the estimated health benefits of EPA's proposed 
ozone standards compare to the costs? In other words, what is 
that balance----
    Ms. McCabe. Yes. As we laid out in our illustrative case, 
the benefits outweigh the costs by $3 to every $1 that is 
spent.
    Mrs. Capps. And this is based on studies that actually do 
demonstrate this?
    Ms. McCabe. It is based on all the information that is 
available to us about the things that people are likely to do 
and the cost benefits associated with the health benefits.
    Mrs. Capps. Thank you very much.
    And I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Mississippi, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    Thank you for being here today. Seems like you do hang out 
here quite a bit. So it is good to have you back.
    Ms. McCabe. I do. I am happy to.
    Mr. Harper. Well, look, just a quick question.
    If we were able to somehow eliminate all ground-level 
ozone, there would still be people that would have respiratory 
illnesses. You would agree with that, wouldn't you?
    Ms. McCabe. Sure. Thereare lots of things that contribute 
to respiratory illness.
    Mr. Harper. Sure. And as we learn how to measure more 
minute levels of any type of item, that is something that I 
know we have to look at.
    But I am really concerned, as we look at this, if we revise 
the current ozone standards, how that is going to affect 
transportation conformity requirements.
    And so if you could just briefly say what is transportation 
conformity, what does that mean?
    Ms. McCabe. Transportation conformity is a provision in the 
act that wants to make sure that as States and municipalities 
are working to improve their air quality, that transportation 
planning is taken into account and that transportation planning 
takes air quality into account so that areas won't undermine 
their efforts to improve air quality inadvertently through 
transportation projects that could increase air pollution.
    Mr. Harper. So states and localities will have that 
responsibility.
    Ms. McCabe. They do have that now.
    Mr. Harper. Obviously.
    Ms. McCabe. And working with the Federal Government.
    Mr. Harper. And in order to make that demonstration----
    Ms. McCabe. Yes.
    Mr. Harper [continuing]. What kind of modeling tools will 
these cities need to use?
    Ms. McCabe. Well, there are tools that are in existence now 
and tools that EPA and Federal highway provide so that we work 
with the States on to analyze those impacts.
    Mr. Harper. Well, how----
    Ms. McCabe. We have been doing this for a long time.
    Mr. Harper. How reasonable or what type of situation is it 
for smaller cities? What about those that have that? Are you 
expecting the smaller cities to do the same analysis, and is 
that reasonable, and what are you anticipating?
    Ms. McCabe. We would certainly provide any assistance that 
we needed to for any community. This is a focus in larger 
communities, more populous communities, but we would provide 
whatever assistance was needed to help.
    Mr. Harper. So if the focus is for larger communities, are 
you planning on extending it to every community?
    Ms. McCabe. The Clean Air Act provides the areas that need 
to look at transportation conformity. So we would follow the 
guidance and the requirements in the act and the regulations.
    Mr. Harper. So if EPA allowed existing Federal measures to 
work, existing now, wouldn't many cities avoid having to do 
these time-consuming transportation conformity analyses?
    Ms. McCabe. Well, we actually are--RIA looks at the--what 
we expect to happen to air quality in the future, looking at 
the rules that are in place now and the ones that are under 
development now, and we show that the vast majority of the 
areas that right now would have levels exceeding these 
standards by 2025 will come into attainment of those standards 
through these measures.
    Mr. Harper. We have lots of important issues.
    And one of those issues is what to do about our highway, 
bridges, infrastructure, issues that we have in this country, 
and then many of those need to be repaired. We need new ones 
that need to be built. Stringent ozone standards, obviously, 
are going to make it harder for States to show that proposed 
highway projects conform with ozone standards.
    Has EPA considered the economic and safety impacts that 
could result if these more stringent ozone standards block 
crucial transportation projects?
    Ms. McCabe. I don't think that we anticipate or have 
historically seen that conformity blocks important 
transportation projects, especially ones that are needed for 
safety reasons.
    Mr. Harper. Well, you haven't seen that under the current, 
but if we have more stringent requirements and that causes 
additional cost, can you explain that?
    Ms. McCabe. I don't expect that the system would work 
differently in any areas. We don't expect a lot of new areas to 
be coming into nonattainment under these standards, so the 
areas are generally familiar with and already working with the 
transportation conformity system. But all of the provisions 
that are in there about making sure that important safety 
projects go forward and other important projects go forward, 
those will all continue to apply.
    Mr. Harper. Thank you. And I yield back.
    Mr. Whitfield. The chair recognizes the gentleman from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Welcome, Ms. McCabe. Has previously EPA ever delayed the 
NAAQS standard?
    Ms. McCabe. The NAAQS standard?
    Mr. Green. Yes.
    Ms. McCabe. There is the NO<INF>2</INF> standard, maybe 
that is what you are referring to. EPA, in the past, has not 
always met its deadlines, I would say, on----
    Mr. Green. OK. Well, that is the other thing. If EPA hadn't 
delayed the standards when the law required EPA to review the 
ozone standard again, what would be the regular timeline? Would 
it be 2015?
    Ms. McCabe. The last time the ozone standard was revised 
was in 2008. Clean Air Act says every 5 years. So 2013 would 
have been 5 years.
    Mr. Green. OK. In your testimony, you stated EPA examined 
thousands of scientific studies, including more than 1,000 new 
studies published since EPA last revised the standard. The 
ozone NAAQS proposal, EPA acknowledged there is a brandnew 
scientific data the EPA couldn't consider. Also, EPA states 
there are significant uncertainties regarding some of the 
studies that EPA did include regarding lowering the standard.
    Most importantly, by 2017, the following standards will be 
in place that would significantly affect ozone and precursors. 
Ozone NAAQS at 75 parts per billion, Tier 3 vehicle emission 
standards, mercury and air toxic standards, from the Utility 
MACT, new source performance standards for volatile organic 
compounds, and particulate matter that NAAQS is important 
because EPA acknowledges reduction of particulate matter would 
account for two-thirds or three-fourths of those ozone NAAQS 
benefits.
    Why is lowering the standard not more appropriate after the 
75-parts-per-billion standard has time to take effect and EPA 
reviews all the new and related information and data, say, 
2017?
    Ms. McCabe. Well, because the Clean Air Act gives us a 
timetable of every 5 years, and we are late on that, and 
because this is about letting the American people know what is 
healthy air quality for them.
    Mr. Green. Well, in earlier NAAQS, the EPA stated in 
earlier decisions, based on the applicable statutory 
requirements and the volume of material requiring careful 
evaluation, the EPA estimates it will be take 2 to 3 years to 
incorporate over 1,000 new health studies and criteria 
documents. Given various legal constraints and the fact that 
EPA has already missed deadlines for completion of ozone review 
cycles, the Administrator concluded that the best course of 
action would be to complete the current review based on the 
existing air standard and proceed as rapidly as possible with 
the next review. Why would EPA not make a similar decision now 
since we are in 2015 now?
    Ms. McCabe. Because we are now in that regular review, we 
are past our statutory deadline, and in fact, we are subject to 
a court schedule to finalize this rule.
    Mr. Green. Well, my earlier question, there have been times 
that EPA has delayed it in the past. Is that true?
    Ms. McCabe. On our regularly required 5-year review----
    Mr. Green. Yes.
    Ms. McCabe [continuing]. There have been times when we have 
not met that deadline. I think you are referring to the ozone 
reconsideration, which was not a mandatory requirement under 
the Clean Air Act. But for our mandatory 5-year review cycle, 
we have not deliberately delayed. We have missed deadlines, and 
we are in that situation now.
    Mr. Green. I guess the concern I have, and you have heard 
it from other members, is that we haven't met the current 
standard, and yet we are getting ready to see some really 
things happen. And so to put a new standard on with all this is 
maybe starting too early before we see what the benefits are of 
the other things that the industries and everyone else is 
complying with.
    And, again, EPA has delayed it in the past. But, for a 2-
year delay, while all these other things come into play, and we 
will have better data then to be able to look at it.
    Ms. McCabe. I will say, Congressman Green, that the effect 
of those various measures will affect air quality. And so if a 
standard is revised, and folks need to look at which areas do 
and don't meet the standard, all of those programs, like 
mercury and air toxic standard, Tier 3, will be bringing air 
quality down so that fewer areas will be in nonattainment, and 
those programs will provide assistance in order to improve air 
quality in those areas.
    Mr. Green. Mr. Chairman, one of my concerns is that part of 
our particulate matter in my area is because of the lack of 
infrastructure improvements. And so we can actually be 
hindering those infrastructure improvements if we make it more 
difficult. But, anyway, I am out of time, but I appreciate you 
being here.
    Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I will recognize the gentleman 
from West Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. What is the 
timeframe on getting some written--because I don't think we are 
going to be under 5 minutes to be able to get through our 
questions. Is there a timeframe to be able to submit written 
questions?
    Mr. Whitfield. Yes, 10 days.
    Mr. McKinley. OK. Within 10 days, thank you.
    Welcome back. My question is that should a rule like this, 
that helps public health, be withheld? Be withheld because of a 
regulatory burden that we have been referring to here?
    Ms. McCabe. I am not sure I understand your question, 
Congressman.
    Mr. McKinley. Well, if there is regulatory burden that is 
going to be imposed with this, should the EPA withhold the bill 
or the rule?
    Ms. McCabe. Well, the Clean Air Act directs EPA to set the 
standards, and the Supreme Court has said that that is our job 
to do and that the issues related to implementation are a 
separate matter of separate consideration not to be considered 
in determining what the proper public health level is.
    Mr. McKinley. So the Court has ruled on that, but I am just 
curious because it goes back that--and you have heard it 
several times mentioned here that the President did step in and 
say there were some--this was going to cause regulatory burden. 
And, therefore, he asked that the rule be held back for a 
period of time. That is an accurate statement, isn't it, that 
the President did intercede?
    Ms. McCabe. That was in a reconsideration event, which is--
--
    Mr. McKinley. OK. That was in 2011. I am just curious. So I 
guess part of me is--part of the question is, what has changed? 
If he felt that this rule should not have proceeded because it 
had regulatory burdens with it, what has improved since 2011 
that is it going to be less burdensome to industry?
    Ms. McCabe. No. The decision to----
    Mr. McKinley. Just those were his words.
    Ms. McCabe. The decision----
    Mr. McKinley. He just said if it has a regulatory burden, I 
think we should hold it back.
    Ms. McCabe. I respectfully I disagree that that is what he 
said, Congressman. That decision was made in the context of 
knowing that there would be the required 5-year review, and the 
decision there was to defer and stop with the reconsideration 
process in deference to the review that we are doing right now.
    Mr. McKinley. He just said that: I underscore the 
importance of reducing regulatory burden and regulatory 
uncertainty. I have requested the Administrator Jackson to 
withdraw the draft ozone standards.
    I think that is interesting because I am curious to see 
what has changed, how the economy is improved or the regulatory 
burden is less. But you have answered about as much--I have 
just limited questions here, time on this. I am just curious a 
little bit about how a county is supposed to work in actual 
functioning through it.
    I have got up to my 20 counties that I represent, 75 
percent of those counties are going to be in noncompliance if 
you go to 65--75 percent. So how are they supposed to--in a 
real world, not from academia, but how are they supposed to 
function when they are going to be in a nonattainment county? 
Seventy-five percent of my counties, 15 of those counties are 
going to be in nonattainment--what are they supposed to do?
    Ms. McCabe. Well, there are counties all across the country 
that have experienced poor air quality, have been designated 
nonattainment in the past, and states work with those counties 
to get programs in place to improve air quality in those areas.
    Mr. McKinley. Can you give me an example? Give me--you are 
talking----
    Ms. McCabe. Yes.
    Mr. McKinley. 30,000 feet.
    Ms. McCabe. OK.
    Mr. McKinley. Just go down to how are they going to change 
the air quality in Jefferson County, West Virginia that has a--
right now is at 81?
    Ms. McCabe. OK. Well, I can talk better about my own home 
State of Indiana.
    Mr. McKinley. No, please just talk--these are just three 
counties in a row that they average 73, so there are already 
going to be so far over. Are we telling them and their kids and 
their families, when they sit at that kitchen table and they 
can't get a job, it is because their air quality is--it was 
fine at 75, but now that they get the 65, there are no jobs 
coming to West Virginia?
    Ms. McCabe. So what states do in nonattainment situations 
is they look at the local sources of air pollution and put in 
place sensible measures to reduce those, and it might be local 
industry. It might be transportation.
    Mr. McKinley. OK. Local industry. You're telling me that 
local industry change how it produces.
    Ms. McCabe. Industry has controlled air pollution 
remarkably over the years. I come from Indiana. I was the air 
director there. We have an area in northwest Indiana that----
    Mr. McKinley. We have some counties like Tyler County, and 
they may have just--well, I won't give--we have some counties 
that just have one industry.
    Ms. McCabe. Right.
    Mr. McKinley. And yet they are in nonattainment.
    Ms. McCabe. And there are many counties for which--from 
which the air pollution is not generated right within that 
county, but it is generated regionally.
    Mr. McKinley. Right.
    Ms. McCabe. That is why States work with metropolitan 
areas. That is why the Clean Air Act has provisions to make 
sure that if upwind States are contributing to downwind States, 
that those upwind States take responsibility, that is why EPA 
moves forward with Federal programs, such as the Tier 3, which 
makes motor vehicle traffic much cleaner everywhere, including 
in your State.
    Mr. McKinley. OK. I will get back to you. I would like to 
have more of a written answer from you because I have got a 
series.
    I want to follow a metric here. How are we going to go down 
through to make these--so there are job opportunities.
    I want to close very quickly. Why are the tribes excluded 
from this regulation?
    Ms. McCabe. The tribes aren't excluded. The tribes have the 
opportunity to regulate themselves, and if not, then EPA----
    Mr. McKinley. But the proposal says that the tribes are not 
obligated to adopt or implement any of the ambient air quality 
standards for ozone. In addition, tribes are not obligated to 
conduct ambient monitoring for ozone or adopt the ambient 
monitoring requirements. That sounds like an exemption to me.
    Ms. McCabe. No. The Federal Government implements the 
standards in Indian country, unless the tribe chooses to seek 
to do it itself. So the standards apply in Indian country. 
Regulations get put in place in Indian country. It is just that 
the Federal Government has the initial responsibility to do 
that.
    Mr. McKinley. I know I am way over time. I would just be 
curious how they are going to change their operation. Thank 
you.
    Mr. Whitfield. The gentleman's time has expired, and he can 
submit those questions.
    At this time, I recognize the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Well, thank you, Mr. Chairman, and thank you 
for calling this hearing.
    And welcome.
    Listening to my colleagues' comments today takes me back to 
a time when I was younger. Now, the Clean Air Act was 
originally adopted by the Congress in the 1960s. Is that right?
    Ms. McCabe. Yes.
    Ms. Castor. And there have been significant amendments in 
the 1970s and especially in 1990. And, I think back to we have 
all kind of lived through this era. And I don't think anyone 
can argue that America is better off because we breathe cleaner 
air. And we have been able to balance environmental progress 
with economic progress. We have the strongest economy in the 
world today.
    Yes, we have our challenges. We have had our setbacks, but 
we have been able to combine environmental progress, cleaner 
air, cleaner water, oversight of chemicals with economic 
progress and good jobs. I remember very well in the late 1960s 
and 1970s walking outside in my home in Tampa, Florida, and the 
air was awful. And we are a warm climate, so we have very 
smoggy days.
    Now, it is much better. It is noticeably better. And anyone 
that lived in the 1960s and 1970s, whether you were in an 
industrial area or not, you understand the progress that we 
have made. So I want to thank you for your attention to cleaner 
air that we breathe. What a privilege it is to live in a 
country that has been able to show such environmental 
stewardship and balance it against economic progress.
    And that is the history of this country, and I am confident 
that we can continue to make that kind of progress.
    Now, Ms. McCabe, what is the ozone standard right now?
    Ms. McCabe. Seventy-five parts per billion.
    Ms. Castor. And what does that mean exactly?
    Ms. McCabe. That means that in a billion units of air, no 
more than 75 of those should be ozone in order to provide 
healthy air quality.
    Ms. Castor. And how long has it been at 75?
    Ms. McCabe. That was adopted in 2008.
    Ms. Castor. And what was it before that time?
    Ms. McCabe. It was 85.
    Ms. Castor. And now the proposal, EPA's proposal directed 
by the Court, directed by the Congress in statute is to go 
where now?
    Ms. McCabe. What the Administrator proposed was a level 
somewhere between 65 and 75 parts per billion.
    Ms. Castor. And that was after significant discussion by 
the Clean Air Scientific Advisory Committee. What is the Clean 
Air Scientific Advisory Committee?
    Ms. McCabe. That is an external expert advisory panel that 
EPA convenes and has assisted us with all reviews of National 
Ambient Air Quality Standards. So it is a special panel 
convened to review all of the science that EPA develops, our 
Office of Research and Development, and the Office of Air and 
Radiation. And they go through a very lengthy process of 
reviewing multiple documents, both science documents and then 
policy documents, and give us feedback on the science that we 
are looking at.
    Ms. Castor. So they considered all sorts of levels?
    Ms. McCabe. So, yes, right, right. And they looked at all 
the studies that we looked at. They considered all of that 
information and our evaluation of it.
    Ms. Castor. And, in fact, that committee indicated that--
and it concluded that--there is adequate scientific evidence to 
recommend a range of levels for a revised primary ozone 
standard from 70 parts per billion to 60 parts per billion. And 
with regard to the upper bound of 70 parts per billion, the 
committee said, based on the scientific evidence, a level of 70 
parts per billion provides little margin of safety for 
protection of public health, particularly for sensitive 
subpopulations like children, elderly folks with respiratory 
problems.
    Although a level of 70 parts per billion is more protective 
of public health than the current standard, it may not meet the 
statutory requirement to protect public health with an adequate 
margin of safety. What are they saying there?
    Ms. McCabe. Well, they are acknowledging, first of all, 
that it is the Administrator's job to make this judgment about 
what protects the public health with an adequate margin of 
safety. What they are saying is that they looked at all of this 
information and that they see evidence in the science record 
from the level of 70 down to a level of 60 that shows adverse 
impacts on public health from ozone at these levels of 
exposure. And what they are saying is that at the top end of 
the range, there is less cushion, there is less margin of 
safety than at lower levels within that range.
    Ms. Castor. So this was taken into account as you develop--
as the Administrator developed the proposal.
    Ms. McCabe. It was.
    Ms. Castor. And when you consider that the public health 
benefits for children, the elderly, respiratory diseases, we 
all know someone in our family or we know someone with asthma--
26 million people in the U.S. are estimated to have asthma, 7 
million children--certainly we can continue the environmental 
progress to improve the public health and balance it against 
the economic needs of the country. I think this is the United 
States of America, and it can be done, so thank you for staying 
true to the law.
    Thank you, Mr. Chairman.
    Ms. McCabe. Thank you.
    Mr. Whitfield. I recognize the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    As you know, I represent a fairly rural district, includes 
the Appalachian Mountains, Appalachian Trail, Blue Ridge 
Mountains, a stone's throw from the Smokies. My understanding 
is, is that under EPA requirements, in order to construct a new 
source of emissions or expand an existing source, there is a 
need to find offsets. Is that accurate?
    Ms. McCabe. It depends on how an area is designated. So 
areas that are the least polluted areas in terms of ozone, it 
changes as the area gets more and more severely polluted.
    Mr. Griffith. OK. Kentucky's air regulator has raised 
concerns about the impacts on rural counties. In particular, he 
stated the statutory and regulatory offset requirements would 
severely restrict economic development in these rural counties 
since, by definition, the areas have no existing offset 
emissions available for any new sources. Rural counties would 
be disproportionately negatively impacted with little 
opportunity for economic development.
    For rural counties, would states be able to seek relief 
from some of these offset requirements?
    Ms. McCabe. There is actually a provision in the Clean Air 
Act that specifically focused on rural counties that may be in 
nonattainment because of transported air pollution. So we would 
work with any state that wanted to come forward and talk about 
rural counties.
    Mr. Griffith. You represented or you said transported 
ozone. The problem that I fear that some of my areas may have 
with the newer requirements as well is that it is not 
transported, but it is natural. As you know, trees produce 
volatile organic compounds, which combined with sunlight, 
produce ozone. Thus the name Smoky Mountains. Thus the name 
Blue Ridge Mountains because the mountains themselves with 
their trees produce ozones. So it is not necessarily 
transported ozone. It is ozone because we are in fact rural and 
have trees that produce some of this. It is not 80 percent, as 
Ronald Reagan once said, but it is a significant contributor, 
particularly in the rural areas like mine in the eastern 
Appalachians.
    In fact, Scientific American in a June 1, 2014, story 
singled out or said, according to their research, black gum, 
poplar oak, and willow are significant producers of volatile 
organic compounds. So is there anything that would give us that 
offset, or do we have to go out into the forest, national or 
private, and say you got to cut the black gum, the poplar, the 
oak, and the willow, but it is OK to leave the birch, the 
linden, and the tulip, which apparently are low producers of 
VOCs, or volatile organic compounds?
    Ms. McCabe. Well, as I mentioned in response to a previous 
question, what our science shows is that the areas that have 
significant challenges with background ozone are in the Rocky 
Mountains, the higher elevation areas. We are not seeing that 
kind of a situation with background in other areas of the 
country.
    Mr. Griffith. So you think the central Appalachians will be 
OK?
    Ms. McCabe. I do.
    Mr. Griffith. But what about this offset? If it is not 
transported, would that rule also cover naturally occurring 
ozone?
    Ms. McCabe. So as we look forward, I would be happy to get 
you this information----
    Mr. Griffith. Please do.
    Ms. McCabe [continuing]. Mr. Griffith, on Virginia, 
particularly, but as we look at areas that are likely to be in 
nonattainment, we will look at air quality in future years to 
make those determinations, and I don't think we are seeing 
widespread nonattainment in rural areas. But in those areas 
where we do, there are opportunities there to work with those 
areas.
    Mr. Griffith. All right. I appreciate the opportunity to 
work on it. I am concerned about it.
    I am going to have to ask you some of these questions 
offline because time is precious and we don't get but so much, 
but if you could get us just some basic process on what the 
states have to do. What is the process for reviewing the state 
implementation plans? What is the range of time this process 
can take to complete, months or years? And if the EPA doesn't 
approve--and I guess this is one I would ask you to answer at 
this time--if the EPA doesn't approve a state's implementation 
plan, what happens to the state? Does it become subject to a 
Federal plan? And would there then be litigation between the 
States and the EPA over that?
    Ms. McCabe. Yes. So the Clean Air Act lays out a lot of 
steps, depending on the severity of the area that dictates how 
much time the states have. But, typically, if an area is 
considered--most areas the last time around were designated as 
marginal nonattainment, which means that they were not obliged 
to do a plan because they were expected to come into attainment 
and many do.
    For ones that are moderate or above, they typically have 3 
years to put a plan together. EPA works with those states to 
try to make sure that those plans are going to be approvable 
when they----
    Mr. Griffith. What happens if their state plan is not 
approved?
    Ms. McCabe. Generally, we work back and forth with the 
state to get it to a place where it is approvable.
    Mr. Griffith. But what if it is not, what do you do?
    Ms. McCabe. Well----
    Mr. Griffith. Do you come up with a Federal plan?
    Ms. McCabe. If a state really didn't want to make a plan 
that was approvable, which most states do, the Clean Air Act 
does provide that EPA would step into a Federal plan. But I 
have to say that that is very, very rare in this situation 
because--both because states want to do their plans because 
they are possible to do them and because we work hard with the 
states to make sure they can be successful.
    Mr. Griffith. And I have got to go. But in those places 
where they don't want to because you have made the standard so 
low, you may see more litigation. Thank you.
    Mr. Whitfield. At this time, I recognize the gentleman from 
New Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Some of my colleagues are quick to argue that EPA's 
proposed ozone standard will hurt the economy, but history tell 
us that cleaning up pollution can benefit the economy as well 
as human health and the environment. Since its enactment in 
1970, the Clean Air Act provides a perfect example of how we 
can make steady progress in cleaning up the air while growing 
the economy.
    So, Ms. McCabe, do we have to choose between clean air and 
economic growth? What does the history of the Clean Air Act 
tell us about our ability to cut pollution while building the 
economy?
    Ms. McCabe. It actually shows us that the two things go 
hand in hand. We have reduced pollution dramatically, air 
pollution dramatically in this country. The economy has grown. 
We have also shown that this country has--and businesses in 
this country have innovated, have come up with pollution-
control technologies that employ American workers and make us 
leaders in the world on selling this kind of technology.
    Mr. Pallone. When we talk about air pollution regulation, 
my Republican colleagues often focus on cost, but they aren't 
talking about the cost from exposure to unsafe air. They are 
talking about the cost of polluters of actually cleaning up 
their act.
    So, again, Ms. McCabe, how do the costs and benefits of 
implementing the proposed ozone standards stack up?
    Ms. McCabe. Well, we look at both. We lay both of those 
out, and in our analysis that we put out with our proposed 
rule, it showed that the benefits of this rule would outweigh 
the costs by three to one.
    Mr. Pallone. And along those lines, the National 
Association of Manufacturers estimates the cost of this rule 
would be $140 billion annually, making the new ozone standard 
the most expensive rulemaking in history. My understanding is 
that EPA's cost estimate--approved by the Office of Management 
and Budget--was much lower. So would you tell us how much does 
EPA expect this standard to cost?
    Ms. McCabe. Yes, our estimates--and, again, these are 
illustrative because the States will make their own choices--
but our estimates are that at a level of 65 parts per billion, 
it would be in the range of 19 to 38 billion in the first 
standard of 70 parts per billion--oh, sorry. I said that 
completely wrong.
    The costs range from 3.9 billion to 15 billion, depending 
on where the standard is.
    Mr. Pallone. So this, based on your experience, that $140 
billion price tag doesn't seem reasonable to you?
    Ms. McCabe. It does not match our evaluation.
    Mr. Pallone. Yes. I mean, this concentration of cost, I 
think, has been misguided. Over the history of the Clean Air 
Act, industry has consistently exaggerated the potential cost 
of controlling pollution.
    How have these doomsday predictions measured up to reality?
    Ms. McCabe. Well, they haven't, given the information that 
folks have in front of them. In 1997, there were similar claims 
made that 1997 standards were going to kill the economy, and 
that absolutely hasn't come true.
    Mr. Pallone. You know, I just wanted to ask you something 
based on some of my Republican colleagues. And I am not trying 
to be critical of them, but can you confirm this? Can you 
confirm that under EPA's projections for West Virginia and 
Virginia, there will be zero counties in 2025 that will exceed 
65 or 70 parts per billion? Does that sound right to you?
    Ms. McCabe. That does sound right to me.
    Mr. Pallone. OK. I have a little over a minute. Let me just 
get to some other questions about health- and science-based 
standards.
    The Clean Air Act requires that EPA review the science 
behind the National Ambient Air Quality Standards every 5 years 
to ensure the best information is used. EPA examined thousands 
of scientific studies when reviewing the ozone standard, and 
given this body of evidence, what are some of the health 
impacts associated with breathing air that contains ozone? And 
what groups of people are most at risk from breathing air 
containing ozone?
    Ms. McCabe. So ozone can have a range of impacts on the 
respiratory system, inflammation of the lungs exacerbated, 
asthma, and this is especially significant for people who have 
asthma, for children, for the elderly, for people with 
compromised respiratory systems. The studies also show an 
association between premature mortality and exposure to ozone.
    Mr. Pallone. So I understand that the Clean Air Scientific 
Advisory Committee and EPA scientists recommended that the 
Agency strengthen the ozone standard from 75 parts per billion 
to a level within the range of 60 to 70. So the Administrator 
has proposed to strengthen the standard to a level within the 
range of 65 to 70.
    Is the proposed ozone level an aggressive or overzealous 
action by EPA as some may claim?
    Ms. McCabe. We believe that the range that the 
Administrator proposed is very well supported by the scientific 
information and affirmed, as you just noted, by our external 
peer-review panel.
    Mr. Pallone. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Ms. McCabe, at the same time the EPA is moving forward with 
its proposed, or excuse me, with its proposed ozone rule, it is 
also proposing its clean power plan, which would require states 
to prepare plans to submit to the EPA.
    How can we realistically expect the EPA to manage several 
new rounds of state plan revisions that will be needed with the 
new ozone standard at the same time that they are reviewing 
plans for the clean power plan?
    Ms. McCabe. Well, these are----
    Mr. Long. That is going to take a lot of money and a lot of 
people, isn't it? And do you have those people and that money?
    Ms. McCabe. These are important programs that the Clean Air 
Act directs us to implement, so we expect to use our resources 
to work with the states to get this work done.
    Mr. Long. You expect to, but is it practical? Is it 
feasible? I mean, a lot of people want to do a lot of things, 
have lofty goals, but when push comes to shove, they can't get 
it done. Do you realistically think that this is something that 
the Agency can handle?
    Ms. McCabe. I do, Congressman. This is our job to do, and 
we will make sure that we get it done.
    Mr. Long. OK. I know it is your job, but I just question 
how it can possibly, how you can have the resources, the time--
you are behind on several things already--the time, the money, 
and the employees to accomplish the goal.
    Ms. McCabe. Some of this work is overlapping as well, some 
of the technical work that we do in terms of air quality 
modeling, and it is efficient to do some of these things 
together. So----
    Mr. Long. Some of the state plan revisions overlap?
    Ms. McCabe. So the technical work that underlies the work 
that EPA and the States need to do in order to implement these 
programs.
    Mr. Long. OK. A few months ago, I met with some city 
officials from Springfield, Missouri, which is my hometown. I 
represent Springfield; Branson, Missouri; Joplin, Missouri; 
southwest part of Missouri. And they are one of the most 
forward-thinking cities and done more work on an integrated 
plan than about anyone. In fact, they were invited out to I 
believe it was Alexandria, and just them and one other city, I 
can't remember now the other city, but there was only two 
cities in the United States that were invited out to present 
how they did their plan and what they do.
    But, anyway, they discussed this integrated plan for 
implementing mandates from the Environmental Protection Agency, 
and after analyzing the cost of the mandates over the next 20 
years, and I have heard some people speculate that, here today, 
that things are never as bad as they seem, but if this was even 
50 percent accurate, it is not doable. It is devastating. And 
they found that complying with the EPA mandates would cost each 
individual in my district, each of my 751,000 constituents, 
$46,000. Now, you can cut that in half if you would like and 
say 23, but anyway, and cut it in half again if you would like, 
but it is not feasible. It is not doable.
    Missouri alone is looking at billions of dollars in 
compliance cost with the proposed ozone regulation and 
financial impact that it will have on everything from 
manufacturing to transportation. And it is going to, like I 
say, have an impact on each one of my constituents.
    Do you all look at the comprehensive financial and economic 
impact to these regulations at all that they are going to have 
on the states and our constituents?
    Ms. McCabe. Well, I am not familiar with exactly the study 
that you are talking about, Congressman, so I can't speak to 
that.
    Mr. Long. I will get it to you. Integrated plan for the 
city of Springfield for the next 20 years, I will be glad to 
provide that to you and your staff.
    But let's say that you were familiar with it. At what 
point--my question is, do you all look at the economic impact?
    Ms. McCabe. So each rule looks at its impacts in light of 
the rules that have come before it, and so there is an 
understanding of the rules and the impacts, both benefits and 
costs, that are associated with trying to use programs.
    Mr. Long. But there is a weight given to cost?
    Ms. McCabe. I am sorry?
    Mr. Long. There is a weight, there is a consideration given 
to the cost?
    Ms. McCabe. Whenever we do regulations, there is an 
evaluation of cost and of benefits.
    Mr. Long. OK. I guess that that is--I am about out of time 
anyway, and Morgan stole some of my notes, I think, and asked 
some of my questions.
    So, anyway, with that, Mr. Chairman, I yield back.
    Mr. Whitfield. At this time, the chair recognizes the 
gentleman from Texas, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    Administrator McCabe, thank you for joining us today. How 
does the market price risk? I mean, if you know something and 
you know what the cost is of something, it has a price, and you 
know that price. But if you don't know something, then the 
price is higher because you have risk, right?
    Ms. McCabe. I----
    Mr. Flores. Yes. OK. In 2010, the EPA, when they proposed 
going to 60 parts per billion, said that that would cost $90 
billion, cost the economy $90 billion. In 2014, you reduced it 
to $40 billion. What happened over that 4-year period to make 
the cost go down?
    Ms. McCabe. So I think what you are comparing is the 
proposal that was put out under the ozone reconsideration 
compared with the most recent one.
    Mr. Flores. Now, just tell me what made it go down.
    Ms. McCabe. Yes. So, in that first one, we were looking at 
a change of the standard from the previous standard of 85 parts 
per billion to that level of in the range of 60 to 70.
    Mr. Flores. So this is not a 75 to 60.
    Ms. McCabe. That is right.
    Mr. Flores. OK. All right.
    Ms. McCabe. Because that was a reconsideration of the prior 
standard.
    Mr. Flores. OK. Thank you. And in your proposal to go to 
either 70 or 65, a significant amount of the control technology 
doesn't exist today, and that is where the risk question comes 
in. So do you know what it costs to offset a ton of ozone in 
the Galveston-Houston area today?
    Ms. McCabe. I don't.
    Mr. Flores. It is about $170,000 a ton. So where did EPA 
price its unknown risk technology on a per ton of what is 
ozone?
    Ms. McCabe. So we looked across the types----
    Mr. Flores. Just give me a number.
    Ms. McCabe. Oh, the number?
    Mr. Flores. Yes, just give me a number.
    Ms. McCabe. I believe it was----
    Mr. Flores. About $15,000.
    Ms. McCabe. That is what I was going to say.
    Mr. Flores. Yes, $15,000. So if we know in Texas what the 
cost to offset a ton of ozone is and it is $170,000, where did 
we come up with $15,000 for imaginary technology that doesn't 
exist? Where in the world did that come from?
    Ms. McCabe. By looking at the history of the costs of 
pollution control technology over the years, and this is 
actually a conservative estimate based on the actual cost to 
control pollution that we have seen over time.
    Mr. Flores. Is that a publicly available document?
    Ms. McCabe. All of our assumptions are publicly available.
    Mr. Flores. Well, let me say that it doesn't pass the smell 
test when we know today what the cost is for an offset, and 
then you have imaginary technology that does not exist, and we 
just price it at a fire sale, give it a Wal-Mart price. That is 
crazy.
    Let's talk about background ozone for a minute. Here is a 
map, background ozone map. Texas has about 70 parts per billion 
on average, 72 parts per billion, of background ozone. So if 
you take the level to 65, what is Texas supposed to do, get a 
big vacuum and send it down to the ozone hole in Antarctica or 
what?
    Ms. McCabe. Well, I am not familiar with that map, but that 
number doesn't sound right to me, Congressman.
    Mr. Flores. Well, that is all right. OK. Let's use 
something a little bit more discreet. How about Rocky Mountain 
National Park has a background of 77.
    Ms. McCabe. Yes.
    Mr. Flores. There is no industry in Rocky Mountain National 
Park.
    Ms. McCabe. As I mentioned, there are--particularly in that 
part of the country, there are a few areas where we are seeing 
high background.
    Mr. Flores. So what do you do? You said you had to have a 
national standard a minute ago, so how are you going to clean 
up Rocky National Park to take it to 65?
    Ms. McCabe. Well, it is not responsible for cleaning up air 
pollution that it doesn't create, and the Clean Air Act 
provides mechanisms to make sure that----
    Mr. Flores. So what is the mechanism? How do you clean up 
Rocky Mountain National Park?
    Ms. McCabe. To the extent that pollution is coming from 
places that we can control.
    Mr. Flores. Well, in this case, it is not.
    Ms. McCabe. Well----
    Mr. Flores. And 77-parts-per-billion background means, by 
definition, is not being produced there, it is coming from 
somewhere else.
    Ms. McCabe. Right, so----
    Mr. Flores. Natural occurring causes, or China.
    Ms. McCabe. It it is coming from motor vehicles around the 
country that--where that air pollution is coming into that 
area, our rules will help reduce that if it is coming----
    Mr. Flores. Let's talk about RFS for a minute. Under your 
2010 regulatory impact analysis of the renewal fuel standard, 
the EPA concluded that the program would contribute to ozone as 
a consequence of increased ethanol use.
    Disregarding that all together, EPA recently proposed that 
its latest targets for RFS through 2016 would lead to higher 
levels of ethanol. And according to the studies of the Journal 
of Geophysical Research that measured emissions of ozone 
forming VOCs from methanol refineries, it is five times higher 
than the EPA's original estimate.
    So the EPA, on one hand, is saying: OK, you have got to 
reduce to 65 to 70 parts per billion. On the other hand, you 
are trying to cram more ethanol in the system, which has a five 
times worse ozone impact on the economy than does the 
production of regular gasoline. I will submit the rest of my 
questions in writing.
    Thank you. I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, I recognize the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    And thank you, Administrator, for being here today. I 
represent rural North Carolina. I grew up with a love for the 
outdoors, and I certainly understand our--the importance of 
protecting the environment. But like many of my colleagues, I 
do have concerns about this proposed rule, and I thought it was 
fascinating my colleague from Florida, Ms. Castor said that the 
air in Tampa, Florida, is clean, that it used to be polluted 
but now it is clean. But I looked up Hillsborough County, 
Florida, and the ozone levels are 71. So even by her definition 
it is clean, I believe her, but even Tampa, Florida, would be 
out of attainment.
    And what I really want to talk about is one of my counties, 
Montgomery County, North Carolina. It is a very rural county. A 
majority of the county is part of Uwharrie National Forest. 
This county has been disseminated with job loss. We have lost 
manufacturing jobs. There is no major significant industry in 
the county. Yet this county has 66 parts per billion in ozone, 
so it would be out of attainment if the standard were 65.
    And, again, this is a beautiful county. It has got two 
rivers. It has got a lake. The air quality is wonderful. It is 
a rural beautiful community. What would the EPA do with a 
county in a situation like that?
    Ms. McCabe. Well, I think we need to be careful about 
making assumptions about which counties will be and won't be 
nonattainment, because we don't know that. We don't know what a 
final standard will be if a decision is made to revise it, but 
also those decisions will be made based on future air-quality 
data. The numbers that I believe you are citing are based on 
air-quality data from 2011 to 2013.
    We will use current, most recent air-quality data when we 
make those decisions. And air quality is trending in a good 
direction. So I think we need to not assume an area will or 
won't be nonattainment based on information that is from prior 
years.
    Mr. Hudson. So do you think the level will stay above 70?
    Ms. McCabe. Which level?
    Mr. Hudson. That EPA sets for air quality?
    Ms. McCabe. No, I am not speaking to what decision might be 
finally made. I am speaking to the information that people are 
citing about whether areas based on air quality now will be in 
attainment if there is a revision to the standard, and we just 
don't know that.
    That being said, we have talked, and I understand the 
comments that many of the members have made about being 
concerned about rural areas. And we do have the ability to work 
with those areas. The Clean Air Act does recognize that there 
are areas that don't control their air quality, and the Clean 
Air Act doesn't hold those areas responsible for reducing 
pollution if it is not being produced there.
    Mr. Hudson. Well, I appreciate that. And, obviously, a 
county like Montgomery County desperately needs jobs, and if we 
get to a nonattainment situation where we can't hire new 
people, we can't attract new industry, it is devastating.
    So what specifically would Montgomery County, North 
Carolina, do if hypothetically it were in nonattainment? Do we 
file a lawsuit against a local city? Or, I mean, how do you----
    Ms. McCabe. Well, programs like the motor vehicle standards 
will improve air quality everywhere in the country where motor 
vehicles are used. This is an example of how the Federal-State 
partnership works where Federal programs bring cleaner air all 
across the country and will take care of the air pollution in 
many areas where there is not a lot of local industry that is 
contributing.
    Mr. Hudson. So we would have to give up our pickup trucks 
and Suburbans? Is that----
    Ms. McCabe. No, no, no. As the fleet turns over, as people 
buy newer cars, the fuels are getting cleaner, and so air 
quality will improve.
    Mr. Hudson. What percentage do you think motor vehicles 
contribute to that?
    Ms. McCabe. Well, motor vehicles generally contribute about 
a third of the air pollution in the country, and see it is not 
just cars driven in Montgomery County. It is cars driven in the 
region that are contributing to regional air pollution.
    Mr. Hudson. Well, I appreciate that.
    And, Mr. Chairman, I have three resolutions I would like to 
insert in the record: One is from Cabarrus Regional Chamber of 
Commerce; another is from Rowan County Board of Commissioners; 
and a third is from the Cabarrus-Rowan Urban Area Metropolitan 
Planning Organization. All these organizations oppose this new 
standard, and I seek unanimous consent to have them inserted in 
the record at this time.
    Mr. Whitfield. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Hudson. Well, thank you. I would again thank you for 
your testimony, but I just have concerns that we are setting 
standards so low that they are not attainable, and when rural 
areas that aren't near industrial areas or not near big cities 
can't reach the attainment, a significant portion, 10 of the 12 
rural counties in my district, I think we may be using the 
wrong metric. So that is my concern. Thank you.
    Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, I recognize the gentlelady from North 
Carolina, Mrs. Ellmers, for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    And thank you, Ms. McCabe, for being with us today.
    I just want to start off, as my colleague from North 
Carolina was pointing out, basically the concerns that we have 
in North Carolina, just in our home state alone, this rule will 
kill over 13,000 jobs a year and decrease the state's GDP 
drastically at a time when we can afford it the least. This 
proposal raises serious concerns, and I look forward to this 
discussion. I definitely have some questions for you.
    Starting off with, in September of 2011, President Obama 
requested that your agency withdraw its proposed ozone standard 
based on his ``concerns about the importance of reducing 
regulatory burdens and regulatory uncertainty, particularly as 
our economy continues to recover.''
    Your agency agreed to withdraw the proposed standard, and 
now you are issuing the revised standard. Can you tell us what 
changes you made to decrease the regulatory burden which now 
allows you to move forward?
    Ms. McCabe. Well, first, let me explain that at that time, 
the Agency was engaged in a reconsideration of the 2008 ozone 
standard, which was not a mandatory duty. We are under a 
mandatory duty to relook at the standard every 5 years. It was 
last reviewed in 2008, so this is our required review.
    Mrs. Ellmers. So there are less regulations now?
    Ms. McCabe. This is about science. This particular decision 
is about science and public health and what the science says 
about what is healthy in the air to breathe. Implementation----
    Mrs. Ellmers. Not to interrupt you, but to point out that 
the President said that he was asking for you to decrease the 
amount of regulations. What regulations have you decreased 
which can move us forward? I understand you are looking at the 
science. I am a nurse. I understand science. But what is it 
that you have done to make this process move forward so that we 
can all come together and work on it?
    Ms. McCabe. Well, we put out regulations like the Tier 3 
regulation that I mentioned a minute ago, which will bring 
improved air quality all across the country. That is--things 
that States won't have to do themselves.
    Mrs. Ellmers. Is that less cumbersome than what existed in 
2008?
    Ms. McCabe. It is a provision that will help states and 
municipalities meet the ozone standard.
    Mrs. Ellmers. OK. Moving on.
    The first question that any economic developer asks when 
locating new plants or considering expansion of an existing 
plant is the attainment status, and I know my colleague from 
North Carolina, we were having this conversation just a moment 
ago.
    Areas designated as nonattainment are immediately excluded 
from consideration. The Clean Air Act requires that the Clean 
Air Scientific Advisory Committee to advise the Administrator 
of any adverse public health, welfare, social, economic, or 
energy effects which may result from various strategies for 
attainment and maintenance of such National Ambient Air Quality 
Standards.
    Given the adverse economic impact of a revised standard, 
why are you not requiring CASAC to take all of these things 
into consideration in regard to economic development?
    Ms. McCabe. In setting the health standard, we have been 
specifically directed by the Supreme Court that looking at the 
implementation implications is not part of setting the health 
standard. And so in this----
    Mrs. Ellmers. So the Supreme Court told you that economic 
development is not significant and should not be considered.
    Ms. McCabe. Is not relevant to the setting of the public 
health standard.
    Mrs. Ellmers. OK. Moving on.
    Nonattainment designation indiscriminately reduces 
development, including development associated with military 
bases. This is particularly important for North Carolina as we 
have many strong military presence there.
    This standard of the level at the near national background 
as is currently being considered will potentially limit 
military expansion and place at risk our military readiness. 
How is your Agency planning on ensuring that your revised ozone 
standard will not jeopardize national security?
    Ms. McCabe. Congresswoman, I am not aware of any instance 
in which the ozone standard has interfered with our military 
readiness.
    Mrs. Ellmers. Well, then I would love to work with your 
office because my understanding is there are some situations 
especially affecting some of our North Carolina bases now that 
this will dramatically affect, so I would like to continue that 
conversation.
    Ms. McCabe. We will be glad to follow up.
    Mrs. Ellmers. Great. Now, lastly, and I have got 31 
seconds. Part of this continued problem is how are 
manufacturers going to be able to deal with this technology. If 
a manufacturer simply cannot meet these standards, what are 
their options? Are they to buy expensive offsets? Are they to 
close their doors? What do we do? How do we help our 
manufacturers?
    Ms. McCabe. We work with the states and with the business 
industry, we look at where the pollution is coming from, and we 
develop programs that are targeted towards addressing the most 
cost-effective reductions, and that is what we have done 
through the whole history of the Clean Air Act, where 
manufacturing has moved forward, has implemented new 
technologies, has been able to grow.
    Mrs. Ellmers. Do existing controls exist right now to 
achieve the 60-parts-per-billion standard or the 65-parts-per-
billion standard?
    Ms. McCabe. Well, keep in mind the Administrator has not 
proposed the 60 parts per billion standard. When we looked at 
the range of 65 to 70, which is what she proposed----
    Mrs. Ellmers. Yes.
    Ms. McCabe. We identified a number of already existing 
controls that will get----
    Mrs. Ellmers. What are those existing controls?
    Ms. McCabe. Things like cleaner engines, scrubbers, NAAQS 
controls, lower VOC paints and coatings, a variety of 
technologies that have been developed over the years that many 
areas are not yet employing that could be employed.
    Mrs. Ellmers. Thank you.
    I yield back.
    Mr. Whitfield. The gentlelady's time has expired.
    At this time, I recognize the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And Ms. McCabe, thanks for joining us again today. You 
know, increased access to low-cost sustainable domestic natural 
gas production has helped tremendously in fueling the 
manufacturing renaissance in this country. This expansion has 
resulted not only in cleaner gas and electricity for 
manufacturers but also provides a new source of natural gas 
liquids, which are essential feed stocks in many major 
manufacturing applications, such as chemicals and plastics.
    A study conducted by the consulting firm NERA, frequently 
contracted by the Department of Energy, among others, shows 
dramatic cost increases in the price of natural gas under a 60-
parts-per-billion standard. The study projects a 52-percent 
increase in the cost of natural gas for industrial use under a 
60-parts-per-billion standard.
    So quick question. Can we expect our manufacturing 
renaissance to continue under this type of scenario?
    Ms. McCabe. I can't speak to that study specifically, but I 
know that there certainly has been a significant increase in 
the development of natural gas. It is a very important----
    Mr. Johnson. We know that, but what I am asking you is when 
we are essentially taxing it with these standards. And I might 
point out to you that in a recent trip that we made to Europe, 
ratepayers, businesses and residential ratepayers in Europe are 
taking a strong second look at their energy profiles because of 
this exact problem, making their businesses noncompetitive and 
their unwillingness to pay the exorbitant high prices for 
energy that is going to result from a rule like this.
    So how can we expect the manufacturing renaissance to 
continue when we are taxing essentially the very energy that is 
providing that renaissance?
    Ms. McCabe. Well, I don't think we are taxing the energy--
--
    Mr. Johnson. Well, sure you are. If you get a 52-percent 
increase in the cost of natural gas under a 62-parts-per-
billion standard, that is essentially a tax.
    Ms. McCabe. Well, I----
    Mr. Johnson. You can call it whatever you want to, but it 
is a tax on the industry.
    Ms. McCabe. Well, I am not sure that I agree with the----
    Mr. Johnson. OK. Well, we will agree to disagree. Let me 
move on. Let me focus on how the EPA has calculated the 
benefits of its proposed ozone standard. And here is the issue 
in a nutshell: Instead of calculating only the benefits from 
reducing nitrogen oxides and volatile organic compounds, the 
constituents of ozone, which are emitted from cars, trucks, and 
stationary sources, EPA also incorporated the cobenefits from 
reducing particulate matter, or PM, from those same sources. Of 
course, this rulemaking has nothing to do with particulate 
matter. EPA has a separate National Ambient Air Quality 
Standard for particulate matter, not to mention multiple other 
rules to regulate it under the Clean Air Act.
    But without the benefits from PM reductions, the ozone rule 
would have very little to show for it. In fact, Dr. Anne Smith 
of NERA has pointed out that these PM cobenefits are actually 
larger than the direct ozone related benefits from the rule. If 
you don't accept NERA's assessment, then how about Cass 
Sunstein, the former head of OMB's Office of Information and 
Regulatory Affairs. He reviewed the ozone reconsideration in 
2011 and helped prevent that proposal from being finalized 
because it was too costly.
    Here is what he said about this, and I quote: But on some 
of the Agency's estimates of the 2011 ozone proposal, the net 
benefits would have been zero. Moreover, a strong majority of 
the benefits would have resulted not from ozone reductions but 
from cobenefit reductions in particulate matter, which come as 
an incidental benefit of the technologies that reduce ozone 
emissions.
    So, Ms. McCabe, this prompts a number of questions. First, 
can you explain to me and our committee the EPA's legal 
justification for engaging in this kind of double counting? How 
is it that you can justify a lower ozone standard using 
benefits from an entirely different pollutant?
    Ms. McCabe. Well, it is not double counting.
    Mr. Johnson. That is not science. That is a shell game. 
That is what that is. That is not science.
    Ms. McCabe. It is not double counting. Those benefits are 
real.
    Mr. Johnson. Those benefits--this rule is supposed to be 
going after ozone, not particulate matter.
    Ms. McCabe. But it is having additional benefits to the----
    Mr. Johnson. But very little in terms of the ozone. Very 
little in terms of the ozone in comparison with the benefits 
that are coming from particulate matter.
    Further, talk to me about how transparent you have been 
with this to the American public. I mean, there are charts 
buried in the proposed rule where somebody maybe with a Ph.D. 
can go infer this information about double counting, but have 
you or the Administrator explained this issue in your speeches 
and public statements about the ozone? Have you told the 
American people that the benefits are coming from somewhere 
else, from a pollutant that is already well regulated by the 
EPA?
    Ms. McCabe. We're very clear. And I myself personally have 
talked about co-benefits that are achieved by programs that we 
implement.
    Mr. Johnson. Yes. Well, I think it is a shell game, Ms. 
McCabe, and I think it is economically destructive to my region 
of the country and to other industries that are providing the 
jobs and the economic vitality of America today.
    Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    I have a couple of other questions I want to ask her, Mr. 
Rush, and then----
    I wanted to ask you a couple of other questions, Ms. 
McCabe.
    The Science Advisory Committee is appointed by who?
    Ms. McCabe. The Science Advisory Committee is--there is an 
office within EPA that administers the Science Advisory Board 
and has a very open process for----
    Mr. Whitfield. But the people who serve on the Science 
Advisory Committee, how are they selected?
    Ms. McCabe. They are nominated.
    Mr. Whitfield. By who?
    Ms. McCabe. Either by themselves or by others, and that is 
through a public process.
    Mr. Whitfield. And then who makes the decision of who 
serves?
    Ms. McCabe. That is a decision made within the Agency by 
our Office of the Science----
    Mr. Whitfield. So EPA decides who serves on the science 
committee?
    Ms. McCabe. Through a robust public process.
    Mr. Whitfield. OK. And how long do they serve?
    Ms. McCabe. I don't know the answer to that.
    Mr. Whitfield. And how many people serve on that committee?
    Ms. McCabe. I don't know the answer to that.
    Mr. Whitfield. Could you get us a list of the names of 
people on the committee and how long their term of office is?
    Ms. McCabe. Yes. Yes. I believe it is, you know, on the 
order of 4 to 6 years, something like that.
    Mr. Whitfield. OK. Thank you.
    Mr. Rush. Ms. McCabe, how long has that committee been in 
existence?
    Ms. McCabe. How long has----
    Mr. Rush. How long has it been in existence?
    Ms. McCabe. The Agency?
    Mr. Rush. No. The science committee.
    Ms. McCabe. Gosh, I don't know, Congressman Rush. But we 
can certainly find out. Many, many years. Many years.
    Mr. Rush. Through both Republican and Democratic 
administrations?
    Ms. McCabe. Yes. Absolutely. And the committees and the 
panels are very well balanced to make sure that there is a 
range of views represented.
    Mr. Rush. Would you say that it is bipartisan?
    Ms. McCabe. Yes, I would.
    Mr. Rush. OK. Oh, yes. Mr. Chairman, I have one more 
question.
    Ms. McCabe, we keep hearing about the President's decision 
in 2010 on the ozone standard, and let me read from that. With 
that in mind, this is what I want to read.
    Statement by the President: ``Work is already underway to 
update a 2006 review of the science that would result in the 
reconsideration of the ozone standard in 2013. Ultimately''--
and this comes directly from the President on the ozone 
National Ambient Air Quality Standards issued on September 2, 
2011--``Ultimately, I did not support asking State and local 
governments to begin implementing a new standard that will soon 
be reconsidered.''
    Do you have any comments? Do you remember that statement by 
the President?
    Ms. McCabe. Yes. So the President was recognizing that the 
regular 5-year review of the ozone standard was already 
underway, and that is what he was directing the Agency to focus 
its attention on.
    If I could just clarify something I said before, 
Congressman Rush, I agreed with your characterization of the 
Science Advisory Board as bipartisan. I think it is probably 
more accurate to call it nonpartisan.
    Mr. Rush. Nonpartisan. OK. All right. Well, thank you so 
much.
    Mr. Chairman, I don't have any additional questions, but I 
do have a unanimous consent request to enter into the record a 
letter from public health organizations opposing legislation or 
amendments that would block or delay EPA's work to update ozone 
standards and, also, a letter from the National Association of 
Clean Air Agencies supporting the EPA's proposal to revise the 
current ozone air standards. And I ask for unanimous consent 
that they be entered into the record.
    Mr. Whitfield. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. With that, I yield back the balance of my time.
    Mr. Whitfield. And then I would also like to ask unanimous 
consent that the following documents be entered into the 
record: Number one, a survey released by the Association of Air 
Pollution Control Agencies entitled ``State Environmental 
Agency Perspectives on Background Ozone and Regulatory 
Relief''; number two, a June 2015 article from the Journal of 
Science entitled ``Challenges of a Lowered U.S. Ozone 
Standard''; and, number three, comments of one of the Texas 
Commission on Environmental Quality on EPA's Proposed Ozone 
Rule--a Texas commissioner's comments. \1\
---------------------------------------------------------------------------
    \1\ The comments have been retained in committee files and are also 
available at http://docs.house.gov/meetings/if/if03/20150612/103590/
hhrg-114-if03-20150612-sd005.pdf.
---------------------------------------------------------------------------
    Without objection, that will be entered into the record as 
well.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. And that concludes today's hearing.
    Once again, Ms. McCabe, thank you for being with us. We 
look forward to continuing engagement with you as we move 
forward.
    And we will keep the record open for 10 days for any 
additional questions or comments or materials.
    And, with that, the hearing is now adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    This morning, we're here to examine the EPA's latest 
proposed new National Ambient Air Quality Standard for ground-
level ozone. I welcome Acting Assistant Administrator McCabe.
    In 2012, President Obama set a goal of creating one million 
new manufacturing jobs during his second term--which certainly 
was a goal we all could get behind. The following January, the 
president's New Year's resolution was to do ``whatever it 
takes'' to create jobs. Yet the administration's policies do 
not match the president's words. When you couple this ozone 
rule with other EPA rules like the Clean Power Plan and 
``Waters of the United States'' rules, the likely outcome will 
be stifled growth, missed opportunities, and lost jobs.
    Make no mistake, the new ozone rule would be a jobs 
killer--especially in the manufacturing industry. An ozone 
nonattainment designation would make it significantly more 
difficult for industries to invest and create businesses in 
communities across the United States. Even existing factories 
would face higher operating costs and red tape. EPA estimates 
that hundreds of counties across the country would not meet the 
proposed standards, including many in my home state of 
Michigan. We also need standard that make sense. In southwest 
Michigan, in Allegan County, you could remove all of the human 
activity and the region would still be in nonattainment because 
of ozone generated in Chicago, Milwaukee, and Gary, Indiana.
    A study conducted by NERA for the National Association of 
Manufacturers tells the story with predictions that are truly 
frightening. The total cost of the new rule could reach $140 
billion annually, making it EPA's most expensive regulation 
ever. In fact, the study states that Michigan could face $1 
billion in compliance costs and stands to lose 20,000 jobs per 
year over the next couple decades. Not exactly the right 
medicine in times of recovery.
    At a time when America's natural gas abundance has given 
domestic manufacturers an edge over the global competition, 
regulation after regulation is chipping away at that 
advantage--and a new ozone rule may well prove to be the last 
straw that shifts the advantage back to foreign-based 
facilities.
    Job creators are paying attention. In a recent survey of 
manufacturers conducted by NAM, more than half the respondents 
said they would not undertake a new project or a major 
expansion in an ozone nonattainment area.
    Not surprisingly, NAM, the Chamber of Commerce, the Auto 
Alliance and just about every other organization that 
represents manufacturers has come out strongly against this 
proposed rule. And it should be noted that the NAM study 
focused solely on manufacturing and did not consider the very 
real threat these new regulations pose to America's energy 
renaissance. Energy producing regions may have to cut back on 
oil and natural gas output to comply with the new ozone 
standard.
    To make its case, EPA declares ozone still poses a serious 
public health threat, but that raises the question why the 
agency has delayed implementation of the current ozone rule. 
The 2008 ozone standard has languished at the agency for years. 
It was only last March--more than 6 years into the 
administration--that the agency finally issued the implementing 
regulations necessary for state and local governments to begin 
putting the new standard in place.
    I strongly support efforts to reduce smog and I supported 
the ozone standard finalized in 2008. We have seen significant 
progress and I endorse reasonable measures to ensure that air 
quality continues to improve but we must strike a balance that 
doesn't hinder economic growth and job creation. For these 
reasons, I believe that we don't need a new ozone standard--we 
need EPA to implement the existing one.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
